No. 20A170

IN THE SUPREME COURT OF THE UNITED STATES

JAMES E. PIETRANGELO, II,
Applicant,
v.
CHRISTOPHER SUNUNU, INDIVIDUALLY AND IN HIS CAPACITY AS THE
GOVERNOR OF THE STATE OF NEW HAMPSHIRE, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Anthony J. Galdieri, a member of the Bar of this Court, hereby certify that
on July 19, 2021, I caused a copy of the accompanying Response in Opposition to
Application for Writ of Injunction Pending Appeal to be served by first-class mail,
postage prepaid, and electronically on:
James E. Pietrangelo II
120 North-South Road
Unit C, PMB #167
North Conway, NH 03860
I further certify that all parties required to be served have been served.
/s/ Anthony J. Galdieri
Anthony J. Galdieri
Senior Assistant Attorney General

